 Office of Inspector General
     Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2011 AND 2010
   Union Station Redevelopment Corporation

         Report Number: QC-2013-100
          Date Issued: June 20, 2013
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                   Date:    June 20, 2013
           Audited Financial Statements for Fiscal Years
           2011 and 2010, Union Station Redevelopment
           Corporation
           Report Number: QC-2013-100

  From:    Louis C. King                                         Reply to
                                                                 Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Federal Railroad Administrator

           I respectfully submit our report on the quality control review (QCR) of the Union
           Station Redevelopment Corporation’s (USRC) audited financial statements for
           fiscal years 2011 and 2010. The audit of USRC’s financial statements as of and for
           the years ended September 30, 2011 and 2010, was completed by Rogers &
           Company PLLC, of Vienna, VA (see Attachment), under contract to USRC. The
           contract required Rogers & Company PLLC to perform the audit in accordance
           with auditing standards generally accepted in the United States of America.

           We conducted this QCR in response to a Congressional request for a full Federal
           audit of the management and financial viability of USRC from the Ranking
           Members of the U.S. House Committee on Transportation and Infrastructure and
           its Subcommittee on Economic Development, Public Buildings, and Emergency
           Management. To address this Congressional request, we performed (1) this QCR
           of Rogers & Company PLLC’s Independent Auditors’ Report and audit
           documentation, and (2) a separate audit that assessed the adequacy of USRC’s
           oversight over Union Station’s development, operations and maintenance. The
           report for the latter will be issued separately and will address the adequacy of
           financing for the continued operations of Union Station.

           Rogers & Company PLLC concluded that the financial statements presented
           fairly, in all material respects, USRC’s financial position on September 30, 2011,
           and 2010, and the changes in its net assets and cash flows for the years then ended,
           in conformity with accounting principles generally accepted in the United States
                                                                             2


of America. Also, Rogers & Company PLLC’s report did not include any
reportable deficiencies in internal control over financial reporting.

Our QCR as differentiated from an audit performed in accordance with generally
accepted Government auditing standards, was not intended for us to express, and
we do not express, an opinion on USRC’s financial statements or conclusions
about the effectiveness of internal controls or compliance with laws and
regulations. Rogers & Company PLLC is responsible for its report dated
February 24, 2012, and the conclusions expressed therein. Our QCR disclosed no
instances in which Rogers & Company PLLC did not comply, in all material
respects, with auditing standards.

We appreciate the cooperation and assistance of USRC’s representatives and
Rogers & Company PLLC. If we can answer any questions, please call me at
202-366-1407, or George Banks, Program Director, at 410-962-1729.

Attachment

                                       #
